Office of Inspector General


     March 30, 2005

     MEMORANDUM

     TO:               Mission Director, US AID/West Bank and Gaza, James A. Bever

     FROM:             Regional Inspector General/Cairo, David H. Pritchard /s/

     SUBJECT:          Survey of USAID/West Bank and Gaza’s Implementation of Executive
                       Order 13224 – Blocking Property and Prohibiting Transactions With
                       Persons who Commit, Threaten to Commit, or Support Terrorism
                       (Report No. 6-294-05-004-S)

     This memorandum transmits our final report on the subject survey. This is not an
     audit report, and the report includes one recommendation to develop and implement
     procedures to ensure that acquisition and assistance files contain all documentation
     that allows the Mission to better comply with Executive Order 13224. Based on the
     actions taken by the Mission to implement the recommendation, both a management
     decision and final action have been reached for Recommendation No. 1.

     In finalizing our report, we considered your comments on the draft report and have
     included your response in its entirety in Appendix II.

     I appreciate the cooperation and courtesy extended to our staff throughout the survey.
BACKGROUND
Following the events of September 11, 2001, President Bush issued Executive Order
13224 - Blocking Property and Prohibiting Transactions With Persons Who Commit,
Threaten To Commit, or Support Terrorism, of September 24, 2001. Executive Order
13224 designated certain individuals and entities that commit or pose a significant risk of
committing terrorist acts. The Order also authorized both the Secretary of State and the
Secretary of Treasury to designate additional individuals and entities. The Order
prohibited transactions with, and provision of support for, individuals or entities listed in
or subject to the Order.

USAID’s Automated Directives System 313.5.2b, “Awards to Suspended or Debarred
Contractors/Suppliers”, prohibits contracts with any party on the U.S. General Services
Administration’s excluded parties list. This list includes the names of individuals and
entities subject to Executive Order 13224.

USAID has issued five Acquisition & Assistance Policy Directives (AAPD) to implement
Executive Order 13224. AAPD 02-04 (March 20, 2002) required USAID contracting
officers to ensure that all USAID contractors and recipients are aware of Executive Order
13224 and the names of the individuals and entities designated thereunder. AAPD 03-
04 (May 1, 2003) amended AAPD 02-04 to provide alternate language for grants issued
to the United Nations or its agencies. AAPD 04-14 1 (September 24, 2004) required
USAID agreement officers to obtain a certification from both U.S. and non-U.S. non-
governmental organizations that the organization does not support terrorism, before
receiving an award of a grant or cooperative agreement.

The Consolidated Appropriations Acts of 2003, 2004, and 2005 provided USAID’s Office
of Inspector General with funds to carry out audits to ensure, among other things, that
USAID funds were not provided to or through any individual or entity that advocates,
plans, sponsors, engages in, or has engaged in, terrorist activity. Allegations that
USAID funds were going to terrorist organizations had engendered media and
congressional interest.

The Office of Inspector General has implemented a program under which it annually
audits USAID’s contractors and recipients, and significant subcontractors and
subrecipients, that are funded for the West Bank and Gaza program. These financial
audits also specifically test for compliance with the prohibitions on terrorist funding.

SURVEY OBJECTIVE
We conducted this survey as part of the Office of Inspector General’s fiscal year 2004
audit plan to answer the following question:

•   How has USAID/West Bank and Gaza implemented Executive Order 13224 on
    Terrorist Financing for assistance and acquisition activities funded by USAID/West
    Bank and Gaza as of June 30, 2004?

Appendix I contains a discussion of the survey’s scope and methodology.
1
  AAPD 04-14 superceded AAPD 02-19 (December 31, 2002) and AAPD 04-07 (March 24,
2004).


                                                                                           1
DISCUSSION
USAID/West Bank and Gaza primarily2 implemented Executive Order 13224 on terrorist
financing through three mechanisms:

•   Vetting—reviewing organizations and individuals by the U.S. Government to ensure
    that the organizations or individuals are not affiliated with terrorism.

•   Certifications—requiring all organizations to certify that the organization does not
    provide material support or resources for terrorism, before being awarded a grant or
    cooperative agreement by USAID.

•   Clauses—requiring a clause in all solicitations and awards for contracts, grants, and
    cooperative agreements which reminds contractors and recipients that U.S.
    Executive Orders and U.S. law prohibit transactions with, and the provision of
    resources and support to, individuals and organizations associated with terrorism.

In addition, as required by the Consolidated Appropriations Ac ts of 2003, 2004, and
2005, the Office of Inspector General oversees audits of USAID’s contractors and
recipients, and significant subcontractors and subrecipients, that are funded for the West
Bank and Gaza program. The Office of Inspector General has coordinated these audits
with USAID/West Bank and Gaza.

USAID/West Bank and Gaza provided funding to foreign contractors, foreign non-
governmental organizations, U.S. contractors, U.S. non-governmental organizations,
contractors funded under the Cash Transfer Grant Agreement to the Palestinian
Authority, and public international organizations. For these entities, USAID/West Bank
and Gaza used three mechanisms to implement Executive Order 13224. Its use of a
specific implementation mechanism differed depending on the type of organization as
shown in the following table.




2
  USAID/West Bank and Gaza also employs other mechanisms, such as USAID staff
scrutinizing various aspects of the recipient’s operations as part of the standard due
diligence and pre-award survey.

                                                                                        2
    Table 1: USAID/West Bank & Gaza Implementation Mechanisms for Executive
                                Order 13224

                                 Vetting of         Certifications       Clauses in
      Type of Organization     Organizations              by             Contracts
        funded by USAID        and Individuals      Organizations3      and Awards
     Foreign contractor              Yes                  No                Yes
     Foreign
     non-governmental
     organization                     Yes                 Yes               Yes
     U.S. contractor                  Yes                 No                Yes
     U.S. non-governmental
     organization                     No                  Yes               Yes
     Contractor funded by
     the Cash Transfer
     Grant Agreement to the
     Palestinian Authority            Yes                  No                No
     Public international
     organization 4                   No                   No             Yes/No 5

Vetting of Organizations and Individuals

USAID/West Bank and Gaza required foreign contractors (receiving over $100,000
annually), foreign non-governmental organizations, U.S. contractors, and contractors
funded under the Cash Transfer Grant Agreement to the Palestinian Authority to be
tested, or vetted, for affiliation with terrorism. USAID/West Bank and Gaza did not vet
public international organizations and U.S. non-governmental organizations.
USAID/West Bank and Gaza performed the vetting by checking the names of
organizations and individuals against U.S. government lists for terrorist affiliation.

On July 12, 2003, the Mission Director for USAID/West Bank and Gaza approved vetting
procedures to ensure that the Mission's assistance program did not provide support to
entities or individuals associated with terrorism. These procedures included the
following provisions:

•    With respect to organizations, vetting applied only to first-tier and second-tier
     recipients.


3
  USAID/West Bank and Gaza noted that the deciding factor for obtaining the
certification is not based on the type of recipient/contractor but rather on the type of
award. A cooperative agreement or grant requires the recipient to sign this certification.
U.S. contractors are entitled to receive cooperative agreements provided that they forgo
profit on these awards. In these cases they will be required to sign the certification.
4
  According to USAID’s Automated Directives System 308.6, a public international
organization is an organization composed principally of governments, in which the
United States participates.
5
  Public international organizations are not required to have the clauses except for the
United Nations and its agencies as later discussed in relation to the requirements of
AAPD-03-04.

                                                                                        3
•   Government officials were exempt from vetting with respect to assistance provided to
    them in their official capacities.

•   If an organization had already been vetted, the Deputy Mission Director decided
    whether vetting was required for each of the organization’s branches that received
    assistance.

•   For contracts and grants under interagency agreements, the recipient agency was to
    implement appropriate review procedures to ensure compliance with Executive
    Order 13224 and related requirements.

Certifications by Organizations

USAID/West Bank and Gaza required both U.S. and foreign non-governmental
organizations to certify that the organization does not support terrorism, before receiving
an award of a grant or cooperative agreement. USAID/West Bank and Gaza did not
require U.S. contractors, foreign contractors, public international organizations, and
contractors funded under the Cash Transfer Grant Agreement to the Palestinian
Authority to provide certifications. However, USAID/West Bank and Gaza required the
Palestinian Authority to provide a similar certification for contracts funded under the
Cash Transfer Grant Agreement.

AAPD 04-14, “Certification Regarding Terrorist Financing”, required USAID agreement
officers to obtain a certification from U.S. and non-U.S. non-governmental organizations
that the organization does not support terrorism. The purpose of the certification is to
provide USAID with assurances that it is not entering into an assistance agreement with
an organization that provides or has provided assistance to terrorists or for terrorist
activity. The certification required the recipient organization to:

•   state that it has not provided, and will take all reasonable steps to ensure that it does
    not and will not knowingly provide, material support or resources to any individual or
    entity that engages in terrorist activity;

•   implement reasonable monitoring and oversight procedures to safeguard against
    USAID assistance being used, either directly or indirectly, to provide material support
    or resources to individuals or entities that engage in terrorist activity;

•   immediately notify USAID and immediately cease support or transactions or dealings
    with any individual or organization listed in or subject to the Order.

If USAID determined that a recipient organization had violated any term or condition of
the certification, USAID could immediately and unilaterally terminate the assistance
agreement with the recipient organization.

In addition, the July 16, 2003, Cash Transfer Grant Agreement between the U.S. and the
Palestinian Authority required the Palestinian Authority to submit a statement that none
of the grant proceeds are furnished to any individual or organization that advocates,
plans, sponsors, engages in, or has engaged in armed hostilities or other acts of
violence.



                                                                                           4
Clauses in Contracts and Awards

USAID/West Bank and Gaza ensured that all USAID contractors and recipients, except
public international organizations (other than the United Nations and its agencies) and
the Palestinian Authority, were aware of Executive Order 13224 by requiring a clause in
all awards. All awards were to have the same standard clause, except those awards
funded under the Cash Transfer Grant Agreement to the Palestinian Authority.
According to AAPD 02-04, “Implementation of E.O. 13224 -- Executive Order on
Terrorist Financing”; solicitations, contracts, annual program statements, requests for
applications, grants, cooperative agreements, or other comparable documents issued by
USAID must contain the following language:

       "The Contractor/Recipient is reminded that U.S. Executive Orders and
       U.S. law prohibits transactions with, and the provision of resources and
       support to, individuals and organizations associated with terrorism. It is
       the legal responsibility of the contractor/recipient to ensure compliance
       with these Executive Orders and laws. This provision must be included in
       all subcontracts/subawards issued under this contract/agreement."

AAPD 03-04 “Terrorist Financing Clause for grants to the United Nations or UN
Agencies” amended AAPD 02-04 to provide the following alternate language for grants
issued to the United Nations or its agencies:

       “Consistent with numerous United Nations Security Council resolutions,
       including S/RES/1269 (1999), S/RES/1368 (2001) and S/RES/1373
       (2001), both USAID and the Recipient are firmly committed to the
       international fight against terrorism, and in particular, against the
       financing of terrorism. It is the policy of USAID to seek to ensure that
       none of its funds are used, directly or indirectly, to provide support to
       individuals or entities associated with terrorism. In accordance with this
       policy, the Recipient undertakes to use reasonable efforts to ensure that
       none of the USAID funds provided under this grant agreement are used
       to provide support to individuals or entities associated with terrorism.”

The July 16, 2003, Cash Transfer Grant Agreement between the United States and the
Palestinian Authority did not include similar language and, therefore, USAID/West Bank
and Gaza did not require this clause in contracts funded under the Cash Transfer Grant
Agreement.

Audits of Organizations

USAID/West Bank and Gaza worked closely with USAID’s Office of Inspector General’s
program of annual audits for USAID/West Bank and Gaza’s contractors and grantees, as
mandated by the Consolidated Appropriations Acts of 2003, 2004, and 2005. These
audits specifically test for compliance with the prohibitions on terrorist funding.




                                                                                     5
CONCLUSION
Vetting of Organizations and Individuals

USAID/West Bank and Gaza maintained vetting documentation for U.S. contractors,
foreign non-governmental organizations, and foreign contractors, including contractors
funded under the Cash Transfer Grant Agreement to the Palestinian Authority 6. We
verified the existence of vetting documentation for:

•   6 of 6 U.S. contractors subject to vetting requirements

•   26 of 26 prime awards to foreign contractors, foreign non-governmental
    organizations, or U.S. contractors and U.S. non-governmental organizations with
    subawards to foreign contractors or foreign non-governmental organizations subject
    to vetting requirements.7

Certifications by Organizations

USAID/West Bank and Gaza maintained certification documentation for U.S. and foreign
non-governmental organizations.   We verified the existence of certification
documentation for:

•   2 of 2 non-governmental organizations subject to the certification requirements. We
    reviewed 16 other awards to non-governmental organizations. However, these
    awards occurred prior to the effective date of USAID’s first applicable Acquisition and
    Assistance Policy Directive which imposed the certification requirement.

Clauses in Contracts and Awards

USAID/West Bank and Gaza maintained clause documentation for foreign contractors,
foreign non-governmental organizations, U.S. contractors, and U.S. non-governmental
organizations. We verified the existence of clause documentation for:

•   23 of 27 contractors and organizations subject to clause documentation
    requirements. We were unable to find clause documentation for 4 of 27 contractors
    and organizations.

Audits of Organizations

USAID/West Bank and Gaza worked closely with USAID’s Office of Inspector General to
implement a program of annual audits for all of USAID/West Bank and Gaza’s
contractors and grantees. For the audits completed as of February 28, 2005:



6
  We did not review foreign contractors funded under the Cash Transfer Grant
Agreement to the Palestinian Authority.
7
  USAID/West Bank and Gaza vetted 1,270 entities under these 26 prime contracts and
grants.

                                                                                         6
•   30 of 30 audits reported no instances of noncompliance with certification
    requirements.

•   25 of 30 audits reported no instances of noncompliance with contract/grant clause
    requirements. In five instances, the prime contractor did not include the required
    clause in all subcontracts. We are not making a recommendation because the five
    financial audit reports each resulted in a recommendation to the Mission.

Recommendation

The United States General Accounting Office issued in November 1999 the “Standards
for Internal Control in the Federal Government.” The General Accounting Office
Standards included examples of control activities to help ensure that management
directives are carried out. One of these basic control activities is the “accurate and
timely recording of transactions and events.” As noted above, we were unable to find
clause documentation for 4 of 27 contractors and organizations.

    Recommendation No. 1: We recommend that the Director, USAID/West Bank
    and Gaza, develop and implement procedures to ensure that acquisition and
    assistance files contain all documentation that allows the Mission to comply with
    Executive Order 13224.




                                                                                        7
EVALUATION OF
MANAGEMENT COMMENTS
In its response to the draft report, USAID/West Bank and Gaza agreed with the finding
that four awards did not incorporate the required special provision (clauses) complying
with Executive Order 13224. In response to the associated recommendation, the
Mission noted that the specific four agreements/contracts have all expired. Therefore,
modifying these instruments was inappropriate since these awards were completed. In
regard to procedures, the Mission reminded staff of the requirement to incorporate the
special provision “Prohibition Against Support for Terrorism” complying with Executive
Order 13224 in all Acquisition and Assistance instruments. The Mission also noted that
it is generating all solicitation and award documents using the PRODOC system. The
Mission verified that the latest version of this system generates the required provisions.
In addition, the Contracting Officer established procedures which will ensure that all
future solicitations and award documents incorporate this special provision.

Based on the actions taken by the Mission to implement the recommendation, both a
management decision and final action have been reached for Recommendation No. 1.




                                                                                        8
                                                                              APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Cairo conducted this survey to determine how
USAID/West Bank and Gaza implemented Executive Order 13224. Our survey was not an
audit and covered assistance and acquisition activities as of June 30, 2004.

We interviewed Mission staff and examined U.S. Government, USAID, and Mission
documents, including:

•   Executive Order 13224 – “Blocking Property And Prohibiting Transactions With
    Persons Who Commit, Threaten to Commit, or Support Terrorism”
•   Cash Transfer Grant Agreement between the U.S. and the Palestinian Authority,
    dated July 16, 2003
•   U.S. General Services Administration “Prohibited Parties List”
•   USAID Acquisition and Assistance Policy Directives
•   USAID Automated Directives System
•   USAID/West Bank and Gaza’s acquisition and assistance files
•   USAID/West Bank and Gaza action memorandum
•   USAID/West Bank and Gaza’s vetting files

We did not independently verify information obtained from the Mission, including
certifications, vetting results, or the universe of active acquisition and assistance awards,
as of June 30, 2004. We reviewed the internal controls related to implementing
Executive Order 13224, but we did not assess the sufficiency of those internal controls.
No prior audit findings affected the Mission’s implementation of Executive Order 13224.

The purpose of our survey was to determine how USAID/West Bank and Gaza
implemented Executive Order 13224. We reviewed awards and contracts dated after and
subject to the requirements of relevant USAID Acquisition and Policy Directives . Based on
the Mission’s implementation, we did not review awards and contracts signed before the
issuance of relevant Acquisition and Assistance Policy Directives but after the issuance
of Executive Order 13224. We also did not review vetting for sub-recipients under the
Cash Transfer Grant Agreement between the U.S. and the Palestinian Authority, dated
July 16, 2003, because audits under this Agreement will test for vetting of contractors.

We conducted this survey at USAID/West Bank and Gaza in Tel Aviv, Israel. The
fieldwork was performed from July 26, 2004, through October 10, 2004.

Methodology
We interviewed Mission management, including the Legal Adviser, Contracting Officer,
and Deputy Mission Director, and collected documents to gain an overview of the
Mission’s implementation of Executive Order 13224.

We then asked the Mission for a list of all acquisition and assistance awards for which
funds had been obligated but not expended, e.g. active awards. The Mission supplied a


                                                                                           9
                                                                             APPENDIX I

list of 55 active awards which included foreign contractors, foreign non-governmental
organizations, U.S. contractors, U.S. non-governmental organizations, and public
international organizations. In addition, we included in this survey the Cash Transfer
Grant Agreement between the U.S. and the Palestinian Authority, dated July 16, 2003.
Of the 55 active awards, the files of 48 active awards were readily available for review.
The 48 files were sufficient to review how the Mission implemented Executive Order
13224. Our methodology varied depending on the implementation mechanism (vetting,
certifications, clauses) used by the Mission.

For vetting of organizations and individuals, we determined that 32 of the 48 active
awards were of the type that were subject to vetting. Of these 32 awards, 6 were U.S.
contractors and 26 were foreign contractors and foreign non-governmental organizations
or U.S. contractors or grantees with subawards to foreign entities. For the 6 U.S.
contractors, we reviewed the award file for documentation of vetting against the U.S.
General Services Administration’s excluded parties list. For the 26 prime awards with
funds going to foreign contractors and foreign non-governmental organizations, we
compared the list of these awards obtained from the Mission’s Acquisition and
Assistance Office against the list of vetted entities maintained by the Mission’s Program
and Project Development Office.

For certifications by organizations, we determined that 18 of the 48 active awards were
of the type that were subject to certification requirements. Of these 18 awards, 16
occurred prior to the effective date of USAID’s first applicable Acquisition and Assistance
Policy Directive which imposed the certification requirement. For the remaining two
awards, we reviewed the award files for documentation of the anti-terrorist certification.

For clauses in contracts and awards, we determined that 27 of the 48 active awards
were of the type that were subject to clause requirements. For the 27 awards, we
reviewed the award files for documentation of the mandatory clause on terrorism.

For audits of organizations, we summarized data from issued audit reports as of
February 28, 2005.




                                                                                        10
                                                                                APPENDIX II




Memorandum

TO:              David H. Pritchard, Regional Inspector General, Cairo

FROM:            James A. Bever, Mission Director, USAID/West Bank and Gaza /s/

SUBJECT:         Draft Survey Report of USAID/West Bank and Gaza’s implementation of
                 Executive Order 13224-Blocking Property and Prohibition with persons
                 who commit, threaten to commit, or support terrorism. Report No. 6-294-
                 05-00x-S

DATE:            March 22, 2005


USAID West Bank and Gaza wishes to thank the Regional Inspector General/ Cairo for the
review of the Mission’s Acquisition and Assistance files to verify compliance with Executive
Order 13224 . We have reviewed the draft survey report (Attachment A, cover memo), and the
following are our comments regarding the recommendation suggested in your report as well
other comments regarding this report.

Recommendation No. 1:

We recommend that the Director, USAID/West Bank and Gaza, develop and implement
procedures to ensure that acquisition and assistance files contain all documentation that allows
the Mission to comply with Executive Order 13224.

Management Comments

We agree with the auditor’s finding that the following four awards did not incorporate the
required special provision complying with Executive Order 13224:


Contract/Agreement           Program                      Contractor/Recipient           Completion
No.                                                                                      Date
294-C-00-02-00231-00         Camp -well                   Saqqa & Khoudary,              8/04
                             construction pilot drill     Inc.
294-A -00-02-00214-          Emergency                    United      Palestinian        7/04
00                           Employment                   Appeal, Inc. (UPA)
                             Generation
294-C-00-03-00223-           Pipe Purchase                Corcel Corp.                   1/05
00
294-C-00-03-00222-           Pipe Purchase                InterBuilmat, Inc.             11/04
00




                                                                                           11
                                                                          APPENDIX II

As shown above, these Agreements/Contracts are no longer valid as they have expired.
Therefore, the Contracting Officer determined that modifying these instruments at this time
is inappropriate since these awards have already been completed.

The OCM staff was reminded on August 2, 2004 (see Attachment B) of the requirement to
incorporate the special provision “Prohibition Against Support for Terrorism” complying
with Executive Order 13224 in all Acquisition and Assistance instruments. Furthermore, it
is worth noting that the OCM staff is generating all solicitation and award documents using
the PRODOC system. We have verified that the latest version of this system generates the
required provisions for the various actions. In addition, the Contracting Officer, has
established procedures which will ensure that all future solicitations and award documents
incorporate this special provision (see Attachment C).

Therefore, we consider that there are sufficient procedures in place to ensure that
acquisition and assistance files contain all documentation that allows the Mission to
comply with Executive Order 13224.

Additional Comments:

With regard to Table No. 1 on page 3 of your report , please note that the deciding factor
for obtaining the Anti Terrorism Certification is not based on the type of
Recipient/Contractor but rather on the type of award contemplated. Any award of a
Cooperative Agreement or Grant requires the Recipient to sign this certification. U.S.
Contractors are entitled to receive Cooperative Agreements provided that they forgo profit
on these awards, and therefore, in these cases they will be required to sign the ATC
certification.

On the first paragraph on page 4 “Vetting of Organizations and Individuals” refers to U.S.
contractors as being required to be vetted. Please note that while the mission does not
perform the vetting process using the same procedures outlined for non- U.S.
Contractors/Recipient s, the Contracting Officer verifies that any U.S. contractor is not
debarred or suspended from receiving awards from the Federal Government.




                                                                                      12
U.S. Agency for International Development
       Office of Inspector General
       1300 Pennsylvania Ave, NW
         Washington, DC 20523
           Tel: (202) 712-1150
           Fax: (202) 216-3047
           www.usaid.gov/oig
